Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


CALIFORNIA IMPROPERLY CLAIMED
      ENHANCED FEDERAL
 REIMBURSEMENT FOR MEDICAID
  FAMILY PLANNING SERVICES
         PROVIDED IN
SOUTHEAST LOS ANGELES COUNTY

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-09-13-02047
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 California claimed at least $2.2 million for fiscal year 2011 in unallowable enhanced
 Federal reimbursement for Medicaid family planning services provided in southeast
 Los Angeles County.

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General reviews found that multiple States improperly
claimed reimbursement at the 90-percent rate for services that were eligible only for the regular
FMAP or were ineligible for Federal reimbursement. In California, we are conducting reviews
of family planning services provided under the Family Planning, Access, Care, and Treatment
(FPACT) program in several counties. One of those reviews found that the California
Department of Health Care Services (State agency) claimed approximately $5.7 million in
unallowable Federal reimbursement for family planning services provided in San Diego County.

The objective of this review was to determine whether the State agency complied with certain
Federal and State requirements when claiming Federal reimbursement at the 90-percent rate for
family planning services provided under the FPACT program in southeast Los Angeles County.

BACKGROUND

In California, the State agency administers the Medicaid program. The State agency’s FPACT
program extends Medicaid eligibility for family planning services to individuals of childbearing
age who reside in California and have incomes up to 200 percent of the Federal poverty level.
Individuals eligible for the FPACT program are generally not otherwise eligible for Medicaid.

The Centers for Medicare & Medicaid Services’ State Medicaid Manual states that Federal
reimbursement is available at the 90-percent rate only for services clearly provided for family
planning purposes. Under the California State plan, Federal reimbursement is available at the
regular FMAP for family-planning-related services provided as part of or as followup to a family
planning service. The regular FMAP decreased from 61.59 percent to 50 percent during our
audit period.

HOW WE CONDUCTED THIS REVIEW

We limited our review to FPACT program claims with provider billing ZIP Codes in southeast
Los Angeles County. (We reviewed east and central Los Angeles County in separate audits.)
From October 1, 2010, through September 30, 2011, the State agency claimed approximately
$27.5 million ($21.3 million Federal share) for family planning services provided in southeast
Los Angeles County. Some of the claim lines were for the same family planning service
provided to a beneficiary on the same service date and billed on the same claim. We grouped
claim lines that had the same claim control number, beneficiary identification number, date of


Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)      i
service, and procedure code. For this report, we refer to these grouped claim lines as
unique “services.” We did not review approximately $1.2 million for services considered to be
at low risk of being unallowable and for reimbursements determined to be immaterial. From the
remaining $26.3 million, we reviewed a stratified random sample of 120 services.

WHAT WE FOUND

The State agency did not always comply with certain Federal requirements when claiming
Federal reimbursement at the 90-percent rate for family planning services provided under the
FPACT program in southeast Los Angeles County. Of the 120 sampled services, 91 complied
and 29 did not comply with requirements. Of the 29 services, 15 were ineligible for
reimbursement because they were not clearly provided for family planning purposes, and
14 were eligible for reimbursement only at the regular FMAP because they were family-
planning-related (provided as part of or as followup to family planning services). On the basis of
our sample results, we estimated that the State agency claimed at least $2,267,822 in unallowable
Federal reimbursement.

The overpayment occurred because the State agency did not have billing procedures to ensure
that it claimed reimbursement at the 90-percent rate only for services clearly provided for family
planning purposes. Also, the State agency’s Medicaid Management Information System
(MMIS) lacked edits to prevent family-planning-related services from being claimed at the
90-percent rate.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $2,267,822 to the Federal Government,

    •   establish billing procedures to ensure that only services clearly provided for family
        planning purposes are claimed for reimbursement at the 90-percent rate, and

    •   establish MMIS edits to ensure that FPACT claims meet Federal and State requirements
        for reimbursement at the 90-percent rate and at the regular FMAP for family-planning-
        related services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
provided information on actions that it had taken or planned to take to address our
recommendations.




Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)    ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 Medicaid Program ....................................................................................................1
                 Medicaid Coverage of Family Planning Services ....................................................1
                 California’s Medicaid Family Planning Program ....................................................2
                 State Requirements for the Family Planning Program ............................................2

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................3

           Federal Requirements ..........................................................................................................4

           State Agency Did Not Comply With Federal Requirements for
             Family Planning Services .................................................................................................4
                  Services Were Not Clearly Provided for Family Planning Purposes ......................4
                  Family-Planning-Related Services Were Eligible for Reimbursement
                    Only at the Regular Federal Medical Assistance Percentage ...............................5

RECOMMENDATIONS .................................................................................................................5

STATE AGENCY COMMENTS ....................................................................................................5

APPENDIXES

           A: Related Office of Inspector General Reports .................................................................6

           B: Audit Scope and Methodology.......................................................................................7

           C: Statistical Sampling Methodology ...............................................................................10

           D: Sample Results and Estimates .....................................................................................12

           E: State Agency Comments ..............................................................................................13




Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)                                                    iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General (OIG) reviews found that multiple States improperly
claimed reimbursement at the 90-percent rate for services that were eligible only for the regular
FMAP or were ineligible for Federal reimbursement. In California, we are conducting reviews
of family planning services provided under the Family Planning, Access, Care, and Treatment
(FPACT) program in several counties. One of those reviews found that the California
Department of Health Care Services (State agency) claimed approximately $5.7 million in
unallowable Federal reimbursement for family planning services provided in San Diego County. 1
(Appendix A lists related OIG reports on States’ claims for family planning services.)

OBJECTIVE

Our objective was to determine whether the State agency complied with certain Federal and State
requirements when claiming Federal reimbursement at the 90-percent rate for family planning
services provided under the FPACT program in southeast Los Angeles County.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

Medicaid Coverage of Family Planning Services

States must furnish family planning services and supplies to individuals of childbearing age who
are eligible under the State plan and desire such services and supplies (the Social Security Act
(the Act), § 1905(a)(4)(C)). Federal law and regulations authorize Federal reimbursement for
family planning services at the 90-percent rate (the Act, § 1903(a)(5), and 42 CFR
§ 433.10(c)(1)).

The CMS State Medicaid Manual (the Manual) states that family planning services include those
that prevent or delay pregnancy or otherwise control family size and may also include infertility
treatments (§ 4270). The Manual indicates that States are free to determine which services and

1
 California Improperly Claimed Enhanced Federal Reimbursement for Medicaid Family Planning Services
Provided in San Diego County, A-09-11-02040, issued December 20, 2012.


Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)         1
supplies will be covered as long as those services are sufficient in amount, duration, and scope to
reasonably achieve their purpose. However, only services and supplies clearly provided for
family planning purposes may be claimed for Federal reimbursement at the 90-percent rate.

Section 2303 of the Patient Protection and Affordable Care Act (ACA) amended section
1902(a)(10) of the Act to give States the option to offer family planning services and supplies to
individuals whose income does not exceed the eligibility level established by the State and
allowed for additional family-planning-related services. CMS’s State Medicaid Directors Letter
10-013, issued July 2, 2010, provides further guidance on the family-planning-related services
mentioned in the ACA. 2

California’s Medicaid Family Planning Program

In California, the State agency administers the Medicaid program. In accordance with the ACA,
the State agency’s FPACT program extends Medicaid eligibility for family planning services to
individuals of childbearing age who reside in California and have incomes up to 200 percent of
the Federal poverty level. Individuals eligible for the FPACT program are generally not
otherwise eligible for Medicaid.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process Medicaid claims for payment. The
expenditures related to the claims are reported on the Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program, for Federal reimbursement.
During our audit period, the regular FMAP for California was 61.59 percent at the start of
Federal fiscal year (FFY) 2011 and decreased each quarter thereafter to 50 percent at the end of
FFY 2011. 3

State Requirements for the Family Planning Program

California’s State Plan Amendment (SPA) 10-014, effective July 1, 2010, included coverage of
family planning services and supplies and family-planning-related services. The SPA required
that the State agency deduct 13.95 percent from its total expenditures when claiming Federal
reimbursement to account for clients who receive family planning services but are not eligible
for public benefits under Federal law, such as nonqualified aliens.

According to the State agency’s Family PACT Policies, Procedures and Billing Instructions
Manual, the FPACT program requires family planning providers to bill for services using special


2
  CMS issued State Medicaid Directors Letter 14-003, effective April 16, 2014, which provides guidance on services
related to sexually transmitted infections and annual visits for men. This guidance differs from State Medicaid
Directors Letter 10-013, which was the guidance effective during our audit period.
3
  The FMAPs by quarter for FFY 2011 were 61.59 percent (first quarter), 58.77 percent (second quarter),
56.88 percent (third quarter), and 50 percent (fourth quarter). The American Recovery and Reinvestment Act of
2009 (Recovery Act), P.L. No. 111-5, provided for temporary increases in FMAP rates. P.L. No. 111-226 amended
the Recovery Act to extend the increases through the third quarter of FFY 2011, with a phasedown over the second
and third quarters of FFY 2011.


Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)                   2
diagnosis codes, called S-codes. The S-code is based on the family planning method selected by
the FPACT client, such as oral contraceptive, contraceptive injection, or barrier method.

HOW WE CONDUCTED THIS REVIEW

We limited our review to FPACT program claims with provider billing ZIP Codes in southeast
Los Angeles County. 4 (We reviewed east and central Los Angeles County in separate audits.)
From October 1, 2010, through September 30, 2011, the State agency claimed $27,516,647
($21,310,268 Federal share) for family planning services provided in southeast Los Angeles
County. 5 Some of the claim lines were for the same family planning service provided to a
beneficiary on the same service date and billed on the same claim. We grouped claim lines that
had the same claim control number, beneficiary identification number, date of service, and
procedure code. For this report, we refer to these grouped claim lines as unique “services.” We
did not review $1,223,055 for services considered to be at low risk of being unallowable and for
reimbursements determined to be immaterial. From the remaining $26,293,592, we reviewed a
stratified random sample of 120 services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B describes our audit scope and methodology, Appendix C describes our statistical
sampling methodology, and Appendix D describes our sample results and estimates.

                                                  FINDINGS

The State agency did not always comply with certain Federal requirements when claiming
Federal reimbursement at the 90-percent rate for family planning services provided under the
FPACT program in southeast Los Angeles County. Of the 120 sampled services, 91 complied
and 29 did not comply with requirements. Of the 29 services, 15 were ineligible for
reimbursement because they were not clearly provided for family planning purposes, and
14 were eligible for reimbursement only at the regular FMAP because they were family-
planning-related (provided as part of or as followup to family planning services). On the basis of
our sample results, we estimated that the State agency claimed at least $2,267,822 in unallowable
Federal reimbursement.

The overpayment occurred because the State agency did not have billing procedures to ensure
that it claimed reimbursement at the 90-percent rate only for services clearly provided for family

4
  We divided Los Angeles County into six areas using natural divisions, such as major highways and geographical
features. Our database of claim lines contained 193 provider billing ZIP Codes. Forty-four of these ZIP Codes were
located in the southeastern area of Los Angeles County, which we refer to as “southeast Los Angeles County.”
5
 Our review did not include claims for family planning drugs and supplies, which will be covered in a future audit
combining providers from all of Los Angeles County.


Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)                        3
planning purposes. Also, the State agency’s MMIS lacked edits to prevent family-planning-
related services from being claimed at the 90-percent rate.

FEDERAL REQUIREMENTS

Providers must keep records as necessary to disclose the extent of the services provided to
individuals receiving assistance under the State plan (the Act, § 1902(a)(27)(A)). Providers must
provide these records to the State agency or the Secretary of Health and Human Services upon
request (the Act, § 1902(a)(27)(B)).

The Manual states that only services and supplies clearly provided for family planning purposes
may be claimed for Federal reimbursement at the 90-percent rate (§ 4270.B).

CMS’s State Medicaid Directors Letter 10-013 states that “family planning-related services are
medical diagnosis and treatment services that are provided pursuant to a family planning service
in a family planning setting” and are reimbursable at the State’s regular FMAP. The letter
further states: “Family planning-related services have historically been considered those services
provided in a family planning setting as part of or as follow-up to a family planning visit. Such
services are provided because they were identified, or diagnosed, during a family planning visit.”
Included in these family-planning-related services are annual visits for men at an office or a
clinic. According to the letter, such a family planning visit may include a comprehensive patient
history, physical, laboratory tests, and contraceptive counseling.

STATE AGENCY DID NOT COMPLY WITH FEDERAL REQUIREMENTS FOR
FAMILY PLANNING SERVICES

On the basis of our review of client medical records for 120 sampled services, we found that the
State agency did not comply with Federal requirements for 29 family planning services,
consisting of 15 services that were not clearly provided for family planning purposes and
14 family-planning-related services that were eligible for reimbursement only at the regular
FMAP. 6 Using our sample results, we estimated that the State agency claimed at least
$2,267,822 in unallowable Federal reimbursement.

Services Were Not Clearly Provided for Family Planning Purposes

Of the 15 services not clearly provided for family planning purposes, 7 were for services
provided for non-family-planning purposes (such as testing for tuberculosis), 5 were for the
testing or treatment of sexually transmitted infections (which were not provided as part of a
family planning visit), and 3 did not have sufficient documentation. For two of these three
services, the State agency was unable to locate the medical records for the clients. For the
remaining service, there was insufficient documentation to support that the service was provided.

Because the services were not clearly for family planning, they were not eligible for Federal
reimbursement. The State agency did not have billing procedures to ensure that it claimed

6
 During our audit, State medical professionals performed a medical review of the 29 services that we determined
did not comply with Federal requirements. The medical professionals concurred with our findings.


Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)                     4
reimbursement at the 90-percent rate only for services provided for family planning purposes.
Specifically, the State agency required providers to use S-codes as primary diagnosis codes,
which allowed services provided for purposes other than family planning to be incorrectly
claimed as family planning. The S-code is based on the family planning method selected by the
FPACT client, not the purpose of the service.

Family-Planning-Related Services Were Eligible for Reimbursement Only at the Regular
Federal Medical Assistance Percentage

Fourteen services were family-planning-related but were improperly claimed at the 90-percent
rate. Of these services, 10 were followup visits to a previous family planning visit, and 4 were
annual visits for male patients. Because the services were family-planning-related services, they
were eligible for Federal reimbursement only at the regular FMAP. The amount that we
disallowed was the difference between reimbursement at the 90-percent rate and reimbursement
at the regular FMAP. The State agency’s MMIS lacked edits to prevent family-planning-related
services from being claimed at the 90-percent rate.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,267,822 to the Federal Government,

    •   establish billing procedures to ensure that only services clearly provided for family
        planning purposes are claimed for reimbursement at the 90-percent rate, and

    •   establish MMIS edits to ensure that FPACT claims meet Federal and State requirements
        for reimbursement at the 90-percent rate and at the regular FMAP for family-planning-
        related services.

                                   STATE AGENCY COMMENTS
In written comments on our draft report, the State agency agreed with our recommendations and
provided information on actions that it had taken or planned to take to address our
recommendations. The State agency’s comments are included in their entirety as Appendix E.




Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)   5
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                              Report               Date
                             Report Title
                                                                              Number              Issued
California Improperly Claimed Enhanced Federal                             A-09-13-02019        7/25/2014
Reimbursement for Medicaid Family Services Provided in
East Los Angeles County

California Improperly Claimed Enhanced Federal                             A-09-13-02012        7/25/2014
Reimbursement for Medicaid Family Services Provided in
Central Los Angeles County

California Improperly Claimed Enhanced Federal                             A-09-13-02044        7/25/2014
Reimbursement for Medicaid Family Services Provided in
Orange County

Missouri Did Not Always Correctly Claim Costs for Medicaid                 A-07-12-01118        1/28/2014
Family Planning Drugs for Calendar Years 2009 and 2010

California Improperly Claimed Enhanced Federal                             A-09-12-02077        6/25/2013
Reimbursement for Medicaid Family Planning Drugs and
Supplies Provided in San Diego County

Missouri Did Not Always Correctly Claim Costs for Medicaid                 A-07-12-01117        6/12/2013
Family Planning Sterilization Procedures for Calendar Years
2009 and 2010

Missouri Incorrectly Claimed Federal Reimbursement for                     A-07-12-01121        3/13/2013
Inpatient Claims With Sterilization and Delivery Procedures for
Calendar Years 2009 and 2010

Arkansas Inappropriately Received Medicaid Family Planning                 A-06-11-00022        1/18/2013
Funding for Federal Fiscal Years 2006 Through 2010

California Improperly Claimed Enhanced Federal                             A-09-11-02040        12/20/2012
Reimbursement for Medicaid Family Planning Services
Provided in San Diego County

Wyoming Incorrectly Claimed Enhanced Reimbursement for                     A-07-11-01100        8/17/2012
Medicaid Family Planning Sterilization Costs

North Carolina Incorrectly Claimed Enhanced Federal                        A-04-10-01089        6/15/2012
Reimbursement for Some Medicaid Services That Were Not
Family Planning




Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)            6
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY


SCOPE
                                                                         Figure: Los Angeles County
We limited our review to FPACT program claims with
provider billing ZIP Codes in southeast Los Angeles
County. Because of the large size of Los Angeles
County, we divided the county into areas using natural
divisions, such as major highways and geographical
features. The three areas identified in the figure
represented 73 percent of the total amount that the State
agency claimed in FFY 2011 for family planning
services provided in Los Angeles County. (We reviewed
east and central Los Angeles County in separate audits.
We are not reviewing the rest of the county.)

From October 1, 2010, through September 30, 2011, the
State agency claimed $27,516,647 ($21,310,268 Federal share) for family planning services
provided in southeast Los Angeles County, representing 922,124 claim lines. Some of the claim
lines were for the same family planning service provided to a beneficiary on the same service
date and billed on the same claim. We grouped claim lines that had the same claim control
number, beneficiary identification number, date of service, and procedure code, resulting in a
total of 919,004 unique services. We did not review 250,655 services, totaling $1,223,055, that
were considered to be at low risk of being unallowable or that had reimbursements determined to
be immaterial. We reviewed a stratified random sample from the remaining 668,349 services,
totaling $26,293,592.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective. We limited
our review to determining whether the services provided to FPACT clients were eligible for
Federal reimbursement at the 90-percent rate. We did not determine whether the clients met the
eligibility requirements of the FPACT program.

We conducted our audit from July 2013 to January 2014 and performed our fieldwork at the
State agency’s office in Sacramento, California, and at provider locations in southeast
Los Angeles County.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal and State laws, regulations, and guidance and the State plan;

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to State agency officials concerning Medicaid family planning claims;



Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)         7
    •   held discussions with State agency officials to gain an understanding of State policies and
        controls for claiming Federal reimbursement for family planning services;

    •   obtained family planning claim data from the State agency’s MMIS for the period
        October 1, 2010, through September 30, 2011, representing 922,124 claim lines for
        family planning services provided in southeast Los Angeles County, totaling $27,516,647
        ($21,310,268 Federal share); 7

    •   grouped the 922,124 claim lines by claim control number, beneficiary identification
        number, date of service, and procedure code, which resulted in 919,004 unique services;

    •   removed 250,655 services, totaling $1,223,055, consisting of 161,849 services with
        reimbursements that we determined to be immaterial and 88,806 services we considered
        to be at low risk of being unallowable; and

    •   developed a stratified random sample from the remaining 668,349 services, totaling
        $26,293,592, by doing the following:

             o We created three strata, representing services with Medicaid-reimbursed amounts
               from $5.00 to $19.99, $20.00 to $39.99, and $40.00 or more.

             o We selected a total of 120 sample units, consisting of 40 sample units for each of
               the 3 strata.

             o We reviewed the stratified random sample of 120 services to determine whether
               family planning services complied with certain Federal and State requirements by
               (1) contacting providers to obtain medical record information for each sampled
               service, (2) reviewing the written physician notes to confirm the purpose of the
               client’s visit, and (3) discussing with State medical professionals those sampled
               services that we determined were unallowable for enhanced Federal
               reimbursement.

             o We estimated the unallowable Federal reimbursement paid in the sampling frame.

See Appendix C for the details of our statistical sampling methodology and Appendix D for our
sample results and estimates.

To determine the State agency’s Federal share, we reduced the total amount claimed by the
CMS-approved deduction percentage of 13.95 percent (for clients who receive family planning
services but are not eligible for public benefits under Federal law) and then applied the
90-percent rate.




7
 The claim data consisted of services paid from October 1, 2010, through September 30, 2011, and provided on or
after July 1, 2010.


Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)                     8
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)   9
               APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of claim lines for Medicaid family planning services provided in
southeast Los Angeles County on or after July 1, 2010; paid by the State agency to providers
from October 1, 2010, through September 30, 2011; and claimed at the 90-percent rate under the
FPACT program.

SAMPLING FRAME

The State agency provided us with a database of FPACT claims, from which we identified
922,124 claim lines for family planning services provided in southeast Los Angeles County,
totaling $27,516,647 for our audit period. Some of these claim lines were for the same family
planning service provided to a beneficiary on the same service date and billed on the same
claim. We grouped the claim lines by claim control number, beneficiary identification number,
date of service, and procedure code, which resulted in 919,004 unique services. From the
resulting 919,004 services, we removed 88,806 services considered to be at low risk of being
unallowable, such as urine pregnancy tests. We established a materiality level of $5.00 or more
and removed 161,849 services that had a reimbursement of less than this amount. After we
removed these services, the sampling frame consisted of 668,349 services totaling $26,293,592
($20,363,072 Federal share).

SAMPLE UNIT

The sample unit was a unique service, defined as one or more of the same family planning
procedure code billed on the same claim and for the same service date for a single beneficiary.

SAMPLE DESIGN

We used a stratified random sample to test the services for allowability. To accomplish this, we
separated the sampling frame into three strata:

    •   Stratum 1: services with a Medicaid-reimbursed amount from $5.00 to $19.99,
        consisting of 202,781 services.

    •   Stratum 2: services with a Medicaid-reimbursed amount from $20.00 to $39.99,
        consisting of 236,378 services.

    •   Stratum 3: services with a Medicaid-reimbursed amount of $40.00 or more, consisting of
        229,190 services.

SAMPLE SIZE

We selected a total of 120 sample units, consisting of 40 sample units for each of the 3 strata.




Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)      10
SOURCE OF RANDOM NUMBERS

We generated the random numbers for each stratum using the OIG, Office of Audit Services
(OAS), statistical software.

METHOD FOR SELECTING SAMPLE UNITS

The stratum 1 frame was numbered 1 through 202,781, the stratum 2 frame was numbered
1 through 236,378, and the stratum 3 frame was numbered 1 through 229,190. Using the random
numbers generated for each stratum, we selected the corresponding frame items in each of the
strata.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal reimbursement
paid.




Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)   11
                    APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                             Table 1: Sample Results (Total Amounts)

             Number of                                                       Number of    Value of
             Services in       Value of         Sample        Value of       Unallowable Unallowable
Stratum       Stratum          Stratum           Size         Sample          Services    Services
   1           202,781         $2,707,280          40            $497              8         $115
   2           236,378          7,915,548          40           1,306             12          374
   3           229,190         15,670,764          40           2,679              9          729
 Total         668,349        $26,293,592         120          $4,482             29       $1,218


                        Table 2: Sample Results (Federal Share Amounts)

                                                                                          Value of
                               Value of                       Value of                   Unallowable
             Number of         Stratum                         Sample        Number of    Services
             Services in       (Federal         Sample        (Federal       Unallowable  (Federal
Stratum       Stratum           Share)           Size          Share)         Services     Share)
   1           202,781         $2,096,653          40             $385             8          $57
   2           236,378          6,130,196          40            1,011            12          178
   3           229,190         12,136,223          40            2,075             9          430
 Total         668,349        $20,363,072         120           $3,471            29        $665


                       Table 3: Estimated Value of Unallowable Services
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                            Total Amount             Federal Share
                    Point estimate            $6,968,314               $3,800,444
                    Lower limit                4,507,891                2,267,822
                    Upper limit                9,428,736                5,333,066




Medicaid Family Planning Services in Southeast Los Angeles County, California (A-09-13-02047)     12
                            APPENDIX E: STATE AGENCY COMMENTS 




                                 State of California-Health and Human Services Agency
        ~HCS
                                 Department of Health Care Services

       • TOBY DOUGLAS
           DIRECTOR
                                                                                                              EDMUND G. BROWN JR.
                                                                                                                   GOVERNOR




             Ms. Lori A. Ahlstrand
             Regional Inspector Genera l for Audit Services
             Office of Audit Services, Region IX
             90-71h Street, Suite 3-650
             San Francisco, CA 94103

             Dear Ms. Ahlstrand:

             The California Department of Health Care Services (DHCS) has prepared its response
             to the U.S. Department of Health and Human Services, Office of Inspector General
             (OIG) draft report entitled California lmporperty Claimed Enhanced Federal
             Reimbursemtn tor Medicaid Familiy Planning Services Provided in Southeast Los
             Angeles County.

             DHCS appreciates the work performed by OIG and the opportunity to respond to the
             draft report. Please contact Ms. Sarah Hollister, Audit Coordinator, at (916) 650-0298 if
             you have any questions.


             Sincerely,

             [Toby Douglas)

             Toby Douglas 

             Director 




             Enclosure




                        1501 Capttol Avenue. Su tte 71.6001, MS 0000 • P.O. 997413 • Sacramento, CA 95899-7413 

                                                   (916) 440-7400 • (916) 440-7404 FAX 

                                                     Internet address: www.dhcs.ca.gov 





.Medicaid Fconily Plcmning Services in Southeast Los Angeles County, California (A-09-13-02047)                                     13
             Ms. Lori A. Ahlstrand
             Page 2



             cc: 	   Karen Johnson , Chief Deputy Director
                     Department of Health Care Services
                     1501 Capitol Avenue, MS 0000
                     P.O. Box 997413
                     Sacramento, CA 95899-7413

                     Mari Cantwell, Chief Deputy Director
                     Department of Health Care Services
                     1501 Capitol Avenue, MS 0000
                     P.O. Box 997413
                     Sacramento, CA 95899-7413

                     Bruce Lim . Deputy Director
                     Aud its & Investigations Division
                     Department of Health Care Services
                     1500 Capitol Avenue, MS 2000
                     P.O. Box 997413
                     Sacramento, CA 95899-7413

                     Bob Sands, Assistant Deputy Director
                     Audits & Investigations Division
                     Department of Health Care Services
                     1500 Capitol Avenue, MS 2000
                     P.O. Box 997413
                     Sacramento, CA 95899-7413

                     Mark Mimnaugh, Chief
                     Medical Review Branch
                     Department of Health Care Services
                     1500 Capitol Avenue, MS 2000
                     P.O. Box 997413
                     Sacramento, CA 95899-7413




.Medicaid Fconily Plcmning Services in Southeast Los Angeles County, California (A-09-13-02047)   14
             Dep artment o f Health Ca re Services Response t o Office of the Ins pecto r General 's 

                                                 Repo rt t itled: 

           C alifornia Improperly Claimed En han ced Fed era l Reimbursem ent for Medicaid Family 

                        Pl anning Serv ices Provided in So utheast Los Angeles County 


          Finding #1: 	The State ag ency did not comply w ith Fed eral req uirem ents for fa m il y
                       planning se rvic es.

          Based on O IG's review of client medical records for 120 sampled services, 91 complied and 29
          did not comply with requ irements. For the 29 family planning services, 15 were not clearly
          provided for family planning purposes and 14 family planning related services that were eligib le
          for reimbursement only at the regu lar FMAP. Using their sampled results, the OIG estimated
          that the State agency c laimed at least $2,267,822 in unallowable Federal reimbursement.

          Recommendatio n: The OIG recommends DHCS refund $2,267,822 to the Federal
          Government.

          Resp o nse: Department of Health Care Services (DHCS) agrees with the recommendation.

          DHCS has reviewed the sampling methodology, sampling resu lts, and estimates. DHCS
          agrees w ith the recommendation. The corrective actions taken and planned are noted in the
          responses to Findings #2 and #3.




          Finding #2: 	 Serv ices were no t c learl y provided fo r Family Planning pu rposes.

          Of the 29 services not clearly provided for a family planning purpose , 7 were for services
          provided for non-family planning purposes (such as testing for tuberculosis), 5 were for the
          testing or treatment of sexually transmitted infections (which were not provided as part of a
          family planning visit) , and 3 did not have sufficient documentation. For two of these three
          services , the State agency was unable to locate the med ical records for the clients. For the
          remain ing service , there was insufficient documentation to support that the service was
          provided.

          Recommendatio n: The State needs to establish billing procedures to ensure that only
          services clearly provided for family planning purposes are claimed for reimbursement at the 90
          - percent rate .


          Resp o nse: DHCS agrees w it h the recommendation .

          DHCS has implemented the following corrective action plans.

             •   System Conversion from S-diagnosis Codes to ICD-9 Codes

                 The DHCS, Office of Family Planning (OFP) has completed the system updates
                 converting the local Family PACTS-diagnosis codes (S-Codes) to ICD-9-CM codes,




.Medicaid Fconily Plcmning Services in Southeast Los Angeles County, California (A-09-13-02047)               15
          14-06: 30 Day Draft Response

                effective December 30, 2013. This conversion to ICD-9-CM codes implement system
                edits to ensure appropriate billing by providers and FFP claiming by DHCS .

                Encounters for family planning will carry the fami ly planning ICD-9-CM codes, and will
                be appropriately claimed at the enhanced FFP rate.

                Encounters for family planning-related services (such as treatment of complications
                from the use of contraceptive methods, and testing and treatment of sexually
                transmitted infections) will be appropriately claimed at the regular FMAP rate.

             • 	 The Family PACT Policies, Procedures and Billing Instructions (PPBI) Manual

                The PPBI manual was revised to reflect the conversion from the localS-Codes to ICD­
                9-CM codes. With the code conversion , current program policies were retained.
                Additionally, language in some of the PPBI sections was updated to clarify fam ily
                planning and family planning-related policies. The revised PPBI manual was published
                on December 17, 2013.

                The Centers for Medicare & Medicaid Services (CMS) issued State Medicaid Directors
                Letter (SMDL) 14-003, effective April 16, 2014, which provides guidance on services
                related to sexually transmitted infections (a family planning-related service) and annual
                visits for men (a family planning service) . Based on th is guidance, OFP is in the
                process of revising the PPBI.

             • 	 Continuing Educationa l Program for FPACT Providers

                OFP has launched a continuing educational program to educate Family PACT providers
                on the scope of the Family PACT program, and the distinction between family planning
                and family planning-re lated services. The training module was updated in May 2012. It
                was recently revised for the 2014 Provider Orientation and Update trainings, which
                started in February 2014 to reflect the code conversion and to clarify family planning
                and family planning-re lated services. As indicated above, CMS' SMDL 14-003 will
                inform further revisions to the Family PACT PPBI manual and updates to the continuing
                educational training of Family PACT providers. The expected publication date of the
                revised PPB I is August 18, 2014.

             • 	 Program Integrity Activities
                 The OFP has implemented several program integ rity activities which assist in the
                 processes for identification, collection, reporting , analysis and disposition of
                 performance data and information on Family PACT providers and the provision of
                 serv ices. These activities allow OFP staff to regularly measure and monitor provider
                 activities against the purpose of the Family PACT program and identi fy when an
                 opportunity exists to improve the quality of program services. Such activities include,
                 but are not limited to:


                                                      Page 2




.Medicaid Fconily Plcmning Services in Southeast Los Angeles County, California (A-09-13-02047)             16
          14-06: 30 Day Draft Response

                    o 	 Provider Profiles: Biannual Provider Profiles provides data on OFP identified
                        indicators of utilization management and quality improvements measures that are
                        directly attributable to the Family PACT provider. The intent is to encourage the
                        delivery of high-quality clinical services while promoting responsible use of
                        funding resources.
                    o 	 Medical Record Review Report: A report of qualitative findings, conducted every
                        three or four years to assess the quality of clinical care in the Family PACT
                        Program.
                    o 	 Audits by DHCS, Audits and Investigations (A&I): Routine audits are conducted
                        by A&l of Family PACT providers to ensure compliance with program criteria and
                        to recover overpayments, if indicated.

                 In addition, OFP will be initiating the following activities:

                    o 	 Desk Review: Review and analysis of individual provider claims and billing
                        patterns based on current policy.
                    o 	 Onsite Provider Review: Onsite provider reviews based on information collected
                        from desk reviews and provider profiles.



          Finding #3: 	 Famil y Planning Related Services were eligible for reimbursement o nly at
                        the regular Federal Medical Assistance Percentage.

          Fourteen services were family planning related but were improperly claimed at the 90-percent
          rate. Of these services, ten were follow-up visits to a previous family planning visit, and 4 were
          annual visits for male patients. Because the services were family planning related services,
          they were eligible for Federa l reimbursement only at the regular FMAP. The amount that OIG
          disallowed was the difference between reimbursement at the 90-percent rate and
          reimbursement at the regular FMAP. The State agency's MMIS lacked edits to prevent family
          planning related services from being claimed at the 90- percent rate .

          Recommendation: The OIG recommends DHCS establish MMIS edits to ensure that FPACT
          claims meet Federal and State requirements for reimbursement at the 90-percent rate and at
          the regular FMAP for family-planning -related services .

          Response: DHCS agrees with the recommendation.

          OFP has MMIS edits in place, such as the MMIS 1703 Table (Family PACT FFP Table for
          Procedure Codes) which is used to determine the FFP rate for the services covered under the
          Fami ly PACT program. However, there are a few services that may be claimed at the 90­
          percent rate or at the regular FMAP rate, depending on the type of encounter: family planning
          or family planning-related.

          DHCS was in the process of developing an Operationa l Instruction Letter (OIL) to the Fisca l
          Intermediary (FI) with the instructions to update the system and discontinue the inappropriate

                                                          Page 3




.Medicaid Fconily Plcmning Services in Southeast Los Angeles County, California (A-09-13-02047)                17
          14-06: 30 Day Draft Response

          claiming of 90-percent FFP for identified few services. However, the development of the OIL
          was placed on hold pending the completion of the ICD-9 code conversion project. With the
          completion of the ICD-9 code conversion project, DHCS is working on updating the MMIS
          system through a System Development Notice (SDN) to establish edits to ensure that Family
          PACT services are appropriately claimed at the 90-percent rate for family planning and at the
          regular FMAP for family-planning-related services. The projected implementation of this SDN
          may take up to a year or longer, contingent upon the comp lexity of the changes required by the
          current system. The conversion to ICD-1 0 , currently in progress and is effective October 1,
          2015, may also impact the timeline for this project.




                                                      Page 4




.Medicaid Fconily Plcmning Services in Southeast Los Angeles County, California (A-09-13-02047)             18
